Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: William Leroy Sanders v. United States of America,
S.Ct. No. 20-8053
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on May 13, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on July 1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 2, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8053
SANDERS, WILLIAM LEROY
USA

NOVA DANIELLE JANSSEN
FEDERAL PUBLIC DEFENDER, NORTHERN &
SOUTHERN DISTRICTS OF IOWA
400 LOCUST STREET
SUITE 340
DES MOINES, IA 50309
515-309-9610
NOVA_JANSSEN@FD.ORG

